           SENSITIVE BUT UNCLASSIFIED

       United States Department of State

     and the Broadcasting Board of Governors

               Ofﬁce of Inspector General





                  Report of Inspection

       Alhurra’s Programming 

      Policies and Procedures



    Report Number ISP-IB-08-45, May 2008




                            IMPORTANT NOTICE
This report is intended solely for the ofﬁcial use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy
directly from the Ofﬁce of Inspector General. No secondary distribution may be made,
in whole or in part, outside the Department of State or the Broadcasting Board of
Governors, by them or by other agencies or organizations, without prior authorization
by the Inspector General. Public availability of the document will be determined by
the Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of
this report may result in criminal, civil, or administrative penalties.




          SENSITIVE BUT UNCLASSIFIED

                                                          United States Department of State
                                                          and the Broadcasting Board of Governors

                                                          Ofﬁce
                                                          Ofﬁ ce of Inspector General




                                             PREFACE


      This report was prepared by the Of
                                       Ofﬁﬁce
                                           ce of Inspector General (OIG) pursuant to the
 Inspector General Act of 1978, as amended, Section 209 of the Foreign Service Act of 1980,
the Arms Control and Disarmament Amendments Act of 1987, and the Department of State and
Related Agencies Appropriations Act, FY 1996. It is one of a series of audit, inspection,
investigative, and special reports prepared by OIG periodically as part of its oversight
responsibility with respect to the Department of State and the Broadcasting Board of Governors
to identify and prevent fraud, waste, abuse, and mismanagement.

      This report is the result of an assessment of the strengths and weaknesses of the ofﬁce, post,
or function under review. It is based on interviews with employees and ofﬁcials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

      The recommendations therein have been developed on the basis of the best knowledge
available to the OIG, and have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective,
efﬁcient,
efﬁcient, and/or economical operations.

     I express my appreciation to all of those who contributed to the preparation of this report.




                                              William E. Todd
                                              Acting Inspector General
                      SENSITIVE BUT UNCLASSIFIED





                                TABLE OF CONTENTS

KEY JUDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

CONTEXT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

CURRENT POLICIES AND PROCEDURES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

INFORMAL RECOMMENDATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

MIDDLE EAST BROADCASTING NETWORK PRINCIPAL OFFICIALS . . . . . . . . . . . . . . . . . . . 17

ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

APPENDIX A – MIDDLE EAST BROADCASTING NETWORKS REVISED

JOURNALISTIC CODE OF ETHICS (MAY 2007) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

APPENDIX B – BBG WEB SITE FOR PERSIAN TRANSLATIONS. . . . . . . . . . . . . . . . . . . . . 27





                      SENSITIVE BUT UNCLASSIFIED

                SENSITIVE BUT UNCLASSIFIED





                        KEY JUDGMENTS

•	 The Middle East Broadcasting Networks, Inc. (MBN) is a nonproﬁt grantee
   of the Broadcasting Board of Governors (BBG) that operates Alhurra
   Television and Radio Sawa. In December 2006 and early 2007, Alhurra’s
   adherence to the broadcasting standards and principles of the U.S. Interna­
   tional Broadcasting Act was questioned. In the past year, Alhurra has taken
   signiﬁcant steps to tighten its procedures and policies in order to protect the
   credibility that is critical to fulﬁlling its mission.

•	 Alhurra updated its 2005 Journalistic Code of Ethics in May 2007, adding a
   section entitled “Controversial/Sensitive Issues,” which explicitly states that
   MBN will not broadcast live speeches or interviews with persons designated
   as terrorists unless the broadcast has been previously approved by the vice
   president for news or his or her designee.

•	 New management controls over programming include close supervision
   by Alhurra’s Arabic-speaking vice president for network news. Three daily
   editorial meetings are used to discuss the rundown for the news and plans for
   programming. An assignments desk coordinates and controls what goes on
   the air. The person ﬁlling the new position of director of program review
   and research monitors Alhurra programming and its competition. The direc­
   tor, an Arabic speaker who reports directly to MBN’s president, has submit­
   ted plans for an in-house program review function.

•	 Alhurra has put into place a journalistic training program with instruction
   provided by experts from the University of Missouri’s School of Journalism
   and the George Washington University School of Public Affairs. It has also
   scheduled follow-up training.

•	 Four initiatives are still in the works. Alhurra expects to start streaming
   original programming from its Web site in the next few weeks. MBN has or­
   dered the equipment required for archiving programming and expects a fully
   operational Web site shortly after streaming commences. A BBG contractor
   is working on translating randomly selected programs and posting them on
   the BBG Web site. The BBG expects this program to increase sharply in the




        OIG Report No. ISP-IB-08-45, Alhurra’s Programming Policies and Procedures - May 2008   1 .


                SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



              weeks ahead to produce a signiﬁcantly higher number of hours of transla­
              tion for Alhurra in fulﬁllment of Congressional intent as expressed in the
              FY 2008 Consolidated Appropriations Act. BBG has contracted with the
              University of Southern California Annenberg School for Communication to
              evaluate Alhurra’s adherence to its journalistic principles. Results are expect­
              ed by the end of June 2008.

          The review took place in Washington, DC, between February 20 and March 31,
      2008. Martha Goode conducted the review. OIG obtained information from BBG,
      the International Broadcasting Bureau, MBN, and the Department of State (Depart­
      ment) through interviews and document reviews.




2 .    OIG Report No. ISP-IB-08-45, Alhurra’s Programming Policies and Procedures - May 2008


                     SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED





                                       CONTEXT


Background of Middle East Broadcasting Networks

   MBN, comprising Alhurra Television and Radio Sawa, is a private, nonproﬁt
corporation created to provide objective and balanced news and information to the
people of the Middle East about their region, the world, and the United States.1 It is
supervised by the BBG, an independent federal agency that oversees all U.S. Gov­
ernment-supported, nonmilitary international broadcasting, including the Voice of
America (VOA) and the Ofﬁce of Cuba Broadcasting (Radio and TV Marti), Radio
Free Europe/Radio Liberty (RFE/RL), and Radio Free Asia. MBN, RFE/RL, and
Radio Free Asia operate as grantees funded by the U.S. Government.

    MBN, according to BBG’s Web site, works to broaden the range of perspectives
and exchange of ideas on issues of signiﬁcance to the lives and future of its audience
and to provide objective, accurate information about America, American policies,
and Americans. It operates three 24/7 Arabic-language news and information televi­
sion channels – Alhurra (Arabic for “The Free One”), Alhurra-Iraq, and Alhurra Eu­
rope – as well as Radio Sawa. MBN broadcasts reach an estimated 35 million people
each week. It is solely funded by the U.S. Government through a grant agreement.
Its FY 2008 budget is approximately $103 million, which includes $10 million from
an emergency supplemental appropriation.

    The regional Alhurra channel was launched in February 2004 to provide a reli­
able source of objective news and information to the entire Middle East region.
Alhurra also has a special Iraq stream that launched in April 2004. In August 2006,
Alhurra launched a third network, targeting Arabic speakers in Europe.




1
 MBN was created pursuant to the Emergency Wartime Supplemental Appropriations Act, 2003
(P.L. 108-11) when the Congress appropriated initial funding “for activities related to the Middle
East Television Network broadcasting to the Middle East and radio broadcasting to Iraq.”




             OIG Report No. ISP-IB-08-45, Alhurra’s Programming Policies and Procedures - May 2008   3 .


                      SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



      Congressional Request

           In House Report 110-197 (H.R. Rep. No. 110-147, at 17 (2007)) for the State,
      Foreign Operations, and Related Programs Appropriations Bill, 2008, the Commit­
      tee on Appropriations requested that the Ofﬁce of Inspector General (OIG) review
      the current programming policies and procedures at Alhurra, particularly its poli­
      cies involving terrorists or those who support them. Congress’s concern dates back
      to at least December 2006, when certain programs were aired on Alhurra that did
      not appear to some to follow the editorial principles stated in the U.S. International
      Broadcasting Act of 1994.2 Speciﬁcally, the House Report asked for a review of
      the editorial policy in place in 2006 and 2007 regarding broadcasts involving terror­
      ists or those who support them; whether any changes were made to that policy or
      the Alhurra’s journalistic code during the period; who was responsible for enforcing
      the policy; what action, if any, was taken against those who violated the policy; what
      management changes have been made to ensure the policy and journalistic code is
      monitored and enforced; and whether there are clear lines of authority at Alhurra to
      provide for accountability of journalistic decisions.

          In the subsequent explanatory statement3 of the Committee on Appropriations
      to the Consolidated Appropriations Act, 2008 (P.L. 110-161), dated December 27,
      2007, this language did not appear. However, the House subcommittee asked OIG to
      prepare a report discussing actions taken by Alhurra to strengthen its procedures and
      policies. The report was to include how MBN had progressed in carrying out the
      directives in House Report 110-197 regarding 24/7 streaming, archiving on Alhurra’s
      Web site of all original programs, and the random translation of Alhurra’s original
      programming by an independent entity.

      Situation in December 2006 and Early 2007

           In December 2006 through early spring 2007, certain allegations came to light
      through the press and other sources stating some Alhurra reports did not live up to
      its journalistic code and were not appropriate, objective, or accurate. Among those
      was a speech on December 7, 2006, by Hezbollah leader Hassan Nasrallah that
      aired for slightly over an hour and without contextual comment. Alhurra explained
      its coverage strategy was to carry the speech for a few minutes to acknowledge to
      viewers that it was taking place. However, because of miscommunication with the
      producer, the speech went on too long before it was dropped.


      2
       22 U.S.C. § 6201 et seq.

      3
       Printed in the Congressional Record, December 17, 2007.



4 .       OIG Report No. ISP-IB-08-45, Alhurra’s Programming Policies and Procedures - May 2008


                        SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



    Another criticized piece was a short segment (two and one-half minutes) on
December 11, 2006, by a reporter covering the conference on denial of the Holo­
caust in Tehran. Alhurra’s management agreed the reporter had not followed MBN’s
journalistic code and did not put the issue in appropriate context to reﬂect the mean­
ing of the conference objectively. Alhurra pointed out its other coverage of the
Holocaust and coverage in general followed the journalistic code.

     Those broadcasts and some others provoked questions of the journalistic capa­
bility of the organization. The articles in newspapers and blogs were both accurate
and inaccurate, according to one BBG ofﬁcial. They made Alhurra a very public
phenomenon. There was evidence, acknowledged by MBN, that some broadcasts
were not up to MBN’s journalistic standards. Some problems came about because
of inexperienced journalists. MBN readily admitted when problems were discovered
and informed its board of directors.

May 16, 2007, Hearing

    On May 16, 2007, the House Committee on Foreign Affairs Subcommittee on
the Middle East and South Asia held a hearing entitled, “Public Diplomacy in the
Middle East and South Asia: Is the Message Getting Through?” One panel was
composed of BBG Governors Joaquin F. Blaya and D. Jeffrey Hirschberg. Discus­
sions and questions for this panel focused on Alhurra’s recent controversial media
coverage. Halfway through the panel, MBN President Brian Conniff, who took of­
ﬁce in June 2006, was asked to join the Board members to answer speciﬁc questions.
The committee wanted assurances Alhurra had initiated better journalistic internal
controls.

    Mr. Conniff stated that, until recently, there had been no formal Alhurra assign­
ments desk to decide on a day’s lineup and to coordinate coverage. Governor Blaya
detailed the changes Alhurra management had made or planned in order to ensure
such problems did not recur. His written testimony stated:

     We acknowledge Alhurra’s error during this period in airing several reports that lacked jour-
nalistic or academic merit. These were a very small fraction of the networks’ broadcasting output,
but nevertheless are unacceptable.4




4
Testimony of Joaquin Blaya, Broadcasting Board of Governors, before the Subcommittee on the
Middle East and South Asia Committee on Foreign Affairs, May 16, 2007, p. 11.


             OIG Report No. ISP-IB-08-45, Alhurra’s Programming Policies and Procedures - May 2008   5 .


                      SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



      Department of State Certiﬁcation

          In order for funds appropriated for Alhurra programs and activities in FY
      2008 to be available, the Secretary of State was required to certify and report to the
      Committees on Appropriations that Alhurra does not advocate on behalf of any
      organization that the Secretary knows, or has reason to believe, engages in terrorist
      activities.5 On February 4, 2008, the Department’s Deputy Secretary of State John
      D. Negroponte certiﬁed the above in writing, along with a memorandum of justiﬁca­
      tion, to the Chairs and Ranking Members of the House and Senate Committees on
      Appropriations and the Chairs and Ranking Members of the State, Foreign Opera­
      tions and Related Program Subcommittees.6

          In the four-page memorandum, the Department described Alhurra’s role as “a
      vital voice for reason in a turbulent region,” providing news on highly sensitive and
      hotly debated issues. The explanation continued:

           As such, it will not be possible for it to provide independent news coverage without mention of
      terrorism and its consequences. Such coverage does not amount to advocacy for such groups and
      serves to provide information in accordance with professional journalistic standards in an area of the
      world where such professionalism is often sadly lacking.7




      5
        P.L. 110-161, Division J, section 114. 

      6
        Pursuant to Department of State Delegation of Authority 245.

      7
        Department of State, “Certiﬁcation Concerning Alhurra Television Pursuant to Section 114 of 

      the Department of State, Foreign Operations, and Related Programs Appropriations Act,” dated 

      February 1, 2008, Memorandum of Justiﬁcation, pp. 2-3.



6 .       OIG Report No. ISP-IB-08-45, Alhurra’s Programming Policies and Procedures - May 2008


                        SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED





    CURRENT POLICIES AND PROCEDURES

    OIG reviewed the changes Alhurra had made in its procedures over the last year
in response to Congressional interest. It studied the journalistic code of ethics that
was in place in December 2006 and whether it was adequate to ensure terrorists not
have uncensored access to Alhurra’s airwaves. OIG also reviewed other managerial
changes initiated by Alhurra during the year, including stricter editorial management
procedures, the evolution of the assignments desk, a new position for independent
monitoring of Alhurra programs by an Arabic speaker, and a robust training pro­
gram. Finally, OIG determined the current status of Alhurra’s streaming, translation,
and independent evaluation projects.

Journalistic Code of Ethics

     All of the BBG broadcasting entities, including MBN, operate under the BBG’s
standards and principles set out in the U.S. International Broadcasting Act of 1994,
Section 303.8 Included in the Act is also the Voice of America Charter (Section 303
(c)). In addition, each entity crafts its own journalistic code of ethics, drawn from
the principles in the Act. BBG management noted the codes of MBN and RFE/RL
were similar, with the same language about treatment of terrorist voices. The Board
provides further policy guidance to entity managers as speciﬁc situations arise.

    In December 2006, MBN operated under its Journalistic Code of Ethics dated
March 2005. At least two of the code’s 20 bulleted points speciﬁcally covered prin­
ciples relevant to MBN’s December 2006 coverage:

    •	 Broadcasts shall not contain material which could be construed as an incite­
       ment to violence. Programming on disturbances or other tense situations
       must be balanced and factual. Alhurra will not permit its programs to be
       used as a platform for terrorist organizations.

    •	 All broadcasts should contain sufﬁcient background information and expla­
       nation to enable the audience to better understand the signiﬁcance and con­



BBG Fiscal Year 2009 Budget Request, p. 1; 22 U.S.C. § 6201 et seq.
8




           OIG Report No. ISP-IB-08-45, Alhurra’s Programming Policies and Procedures - May 2008   7 .


                   SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



              sequences of information being reported. Journalists shall not insert their
              personal opinions or judgments in factual reports at any time.

          In May 2007, MBN issued its Revised Journalistic Code of Ethics. There were
      slight stylistic changes and two new sections. One addressed plagiarism and the
      other, entitled “Controversial/Sensitive Issues,” elaborated on the earlier policy (see
      Appendix A for the May 2007 Revised Journalistic Code of Ethics):

          MBN does not provide an open platform for terrorists or those who support
          them. This has long been the policy of all United States international broadcast­
          ing organizations and grantees, and MBN fully complies with this policy. MBN
          will not broadcast live speeches or interviews with persons designated as terror­
          ists unless the broadcast has been previously approved by the vice president for
          news, or his or her designee. When the broadcast will be on the radio, the Radio
          Sawa news director should be consulted.

      Senior Management Controls

           MBN reports that the current vice president for network news, an Arabic speak­
      er, has helped to strengthen internal journalistic controls. He began June 11, 2007,
      when the previous director for news resigned, under pressure from Congress, after
      about seven months. The vice president for network news and MBN management
      told OIG he exercises tight control over what goes on the air. For there to be any
      live coverage, it must be cleared by him or his designee in advance. Alhurra is on the
      air 24 hours a day and staffs the newsroom for 18 of those hours. The news director
      is available 24/7 to respond to questions and problems.

           In addition, there are now three editorial meetings each day. A morning meeting
      is used to discuss the rundown of news for the day’s newscasts. At mid-day, there
      is a meeting for the Iraqi stream for the next day. During an editorial meeting in the
      afternoon, senior producers decide on work for the next day, the week, the month,
      and special events.

           The vice president for network news monitors programming on Alhurra and
      listens to the audio on his phone. He approves all guests from the region. Among
      other things, he monitors the language used because, as he says, “Arabic is a rich lan­
      guage, and Alhurra needs to be consistent in the way it uses terms.”

          OIG expressed concern that there was no alternate for the vice president. The
      vice president said he is available 24 hours a day and plans to delegate some of his
      responsibilities later. There may also be a deputy chief editor in the future. He


8 .    OIG Report No. ISP-IB-08-45, Alhurra’s Programming Policies and Procedures - May 2008


                     SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED




stated that mistakes occur as in any fast-paced news organization. Some are due to
journalistic weaknesses that experience and training will help. OIG made an infor­
mal recommendation on this topic.

Assignments Desk

     In December 2006, Alhurra did not have a fully operational assignments desk,
although the functions were carried out by separate individuals. Between Decem­
ber 2006 and March 2007, Alhurra gradually brought together this function that is
critical for a journalistic organization. The assignments desk staff, which has three
people and is awaiting a fourth, sit around a desk and function as a team. Previously,
Alhurra did not require scripts of what was proposed for airing, and a project could
go directly to a senior producer without review. The desk reviews scripts and then
“packages” containing all the parts for a program and reports to the vice president
for network news. In the past, there were occasional breakdowns in the editorial
chain. MBN’s management said now the assignment desk can coordinate and con­
trol what goes on the air.

Internal Monitoring

    After the December 2006 problems came to light, MBN’s president appointed an
experienced Arabic speaker, who had been with Alhurra since it began, to become
director of program review and research. The newly created position started in
early February 2007. The director monitors programming continuously and reports
directly to the MBN president to keep him apprised independently of Alhurra’s pro­
gramming and any problems he detects.

    The director’s position description includes the following: “Perform a regular
spot check of Alhurra programming and compare coverage with main competitors
(Al Arabiya and Al Jazeera). Provide a weekly report of analysis; provide special fo­
cus on competitor coverage when Alhurra is airing breaking news of live news cover­
age.” He brings to the president’s attention whether Alhurra is leading coverage or is
missing key coverage carried by the other competitors. The position has authority to
address the vice president of network news immediately if there is an urgent prob­
lem that needs correcting.

    The position is also responsible for internal program reviews and evaluations.
The director is in the process of starting an internal review program and has submit­
ted a plan for FY 2009. He has conferred with RFE/RL and Radio Free Asia on the




           OIG Report No. ISP-IB-08-45, Alhurra’s Programming Policies and Procedures - May 2008   9 .


                   SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




       subject as well as with IBB’s Ofﬁce of Performance Review. In addition, the direc­
       tor reviews internal pilots on DVDs. He said he uses his experience in management,
       ﬁnance, strategic planning, and journalism to advise the MBN president on these
       pilots.

       Training

           BBG Governor Blaya told Congress in May 2007 that a training plan for Alhurra
       that would enhance the skills of its employees and the quality of its programming
       was underway and would be implemented by the end of the ﬁscal year. Alhurra con­
       tracted for journalistic training to be provided by three professors from the Universi­
       ty of Missouri’s School of Journalism. The team presented two 90-minute presenta­
       tions in September 2007. MBN’s president introduced each session and rearticulated
       MBN’s mission to present news in a clear, unbiased manner. The ﬁrst session was
       the theory of good journalism – how fair, balanced, and accurate news serves the
       public and society. Later, attendees analyzed MBN stories. The class lasted three
       and a half days, with three sessions each day. The whole newsroom attended the
       class, except those who were on leave.

           MBN contracted with George Washington University’s School of Public Affairs
       to do a three-part series on political institutions and election coverage. Two sessions
       were held in late December or early January 2008 before the Iowa caucuses. The
       ﬁrst part was on election coverage. A second session focused on U.S. political insti­
       tutions, including the election process and the Constitution. A third session held in
       February 2008 was about covering campaigns and how to understand the impact on
       the Middle East of U.S. election results.

            Training has been well-received, and MBN sees it as a continuing process. MBN
       is planning more training by the University of Missouri geared toward maintaining
       credibility. The challenge is to make future training meaningful for all levels of jour­
       nalists. Alhurra employees hail from many different countries throughout the Middle
       East with varying standards of journalism. The purpose of the training is to ensure
       a consistency of standards for all broadcasts.

       Internet Streaming and Archiving

           The Committee on Appropriations’explanatory statement on H.R. 2764 (P.L.
       110-161) includes the directives from the House Report 110-197 regarding 24/7
       streaming and archiving on Alhurra’s Web site of all original programs. MBN’s
       director of information technology said he was building the streaming system on
       MBN’s current Web site. (A new site is under construction, but he did not want to

10 .    OIG Report No. ISP-IB-08-45, Alhurra’s Programming Policies and Procedures - May 2008


                      SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED




wait until it was completed before beginning the streaming.) Alhurra is to stream its
own original programming from the 24 hours that it is on the air. This amounts to
about eight to 10 hours of original programming, once replays and nonoriginal pro­
gramming are subtracted. IBB has assisted with the project, and MBN is currently
using IBB’s infrastructure for testing.

Translations on Web

    The congressional conference report mentioned above also provided for the ran­
dom translation of up to 16 hours per week of Alhurra’s original programming by
an independent entity. Such translations would be posted to the Internet and would
provide a tool for transparency. A similar translation program run by a contractor
has been in place for VOA Persian television since May 2007 and for Arabic transla­
tions since November 2007. The project uses random selection software to choose
the programs to be translated.

    The system worked well until the end of FY 2007, when continuing resolutions
went into effect. This slowed down the program. From September 30, 2007, until
the end of February 2008, BBG submitted both Persian and Arabic programs for
translation. Translations for this body of programming have experienced delays
related to funding and are being posted as they are completed.

    On February 28, 2008, IBB prepared a new statement of work on program
translation pursuant to the directive in the Appropriation bill. IBB was preparing to
enter into a new series of translations for Alhurra, Radio Sawa, VOA Persian tele­
vision, VOA Persian radio, and Radio Farda. The period of performance is from
March 3, 2008, through September 30, 2008. Those translations would be posted on
the BBG Web site (see Appendix B for location of Persian translations). Industry
professional translators estimate that one hour of radio takes 38 hours for transla­
tion. One hour of television takes 47.5 hours for translation.

Independent Outside Evaluation

    Governor Blaya testiﬁed before Congress in May 2007 that MBN would contract
for an objective, independent review of Alhurra programming to examine its jour­
nalistic integrity and adherence to the standards and principles of the U.S. Interna­
tional Broadcasting Act. IBB’s Ofﬁce of Contracts went through a long process to
select a contractor. Eventually, IBB selected the University of Southern California,
Annenberg School for Communication. The contract was signed at the end of Sep­
tember 2007. The period of performance is through June 30, 2008. The terms of


           OIG Report No. ISP-IB-08-45, Alhurra’s Programming Policies and Procedures - May 2008   11 .


                   SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




       the contract call for an assessment of “Alhurra TV news and current affairs broad­
       casts to determine whether these broadcasts conform to the standards and principles
       set forth in the Act, and more speciﬁcally, with MBN’s Journalistic Code.” BBG
       and the contractor created the evaluation process. The statement-of-work criteria
       requires a blind process of selection of MBN programming. It forwarded more than
       200 hours of programming to the contractor, and work has begun.

           The contractor has provided one progress report to BBG already. The next is
       due at the end of March 2008, and the ﬁnal report is due at the end of June 2008.
       BBG and the contractor have had a number of conversations about methodology
       for the evaluation and recently came to an agreement on criteria. BBG’s representa­
       tive stated that the Board treats the matter of quality control seriously. He estimated
       he had worked on this project about once or twice a week since November 2007.




12 .    OIG Report No. ISP-IB-08-45, Alhurra’s Programming Policies and Procedures - May 2008


                      SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED





                                  CONCLUSION


Recent Audience Research

    As of February 20, 2008, international audience research prepared for BBG indi­
cated the estimated audience for Alhurra is 23 million weekly viewers, a two million
person increase over last year. At the top of the scale was Al Jazeera at 74 million
weekly viewers. At the lower end of the scale were CNN with four million viewers,
BBC World News at three million, and Deutsche Welle with 0.3 million. In the nine
Middle Eastern countries polled, Alhurra’s ratings for being “very” or “somewhat”
trustworthy were 90 percent or above in three countries and between 83 and 89
percent in four countries. The two countries with the lowest percentages were Saudi
Arabia with 76 percent and Iraq with 48 percent.9

Preserving Credibility

     All BBG and MBN ofﬁcials stress that their most precious commodity is broad­
cast credibility and program excellence. Governor Blaya testiﬁed that, “Credibility
is key to success in broadcasting, and it is our greatest asset. If our audiences do
not ﬁnd our broadcasts to be credible, they will tune us out. If they tune us out, we
sacriﬁce our mission.”10 MBN during the past year has put into place more vigorous
policies, procedures, training, and tools for transparency in order to preserve its cred­
ibility. Some plans are still in the works. It knows it must remain diligent.




9
 BBG PowerPoint presentation to Congress entitled “Radio Sawa and Alhurra TV: Performance 

Update,” February 20, 2008.

10
  Testimony of Joaquin Blaya, Broadcasting Board of Governors, Before the Subcommittee on the 

Middle East and South Asia Committee on Foreign Affairs, May 16, 2007.



             OIG Report No. ISP-IB-08-45, Alhurra’s Programming Policies and Procedures - May 2008   13 .


                     SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED





14 .   OIG Report No. ISP-IB-08-45, Alhurra’s Programming Policies and Procedures - May 2008


                     SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED





           INFORMAL RECOMMENDATION

The positions of MBN vice president for network news and director of program re­
view and research are important to maintaining internal controls over programming
quality and adherence to the MBN Journalist Code of Ethics. However, neither of
the two positions has a backup or provisions for what would happen in their ab­
sence.

Informal Recommendation 1: The Middle East Broadcasting Networks should
make plans for delegations of duty for the vice president of network news and the
director of program review and research.




           OIG Report No. ISP-IB-08-45, Alhurra’s Programming Policies and Procedures - May 2008   15 .


                   SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED





16 .   OIG Report No. ISP-IB-08-45, Alhurra’s Programming Policies and Procedures - May 2008


                     SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED





 MIDDLE EAST BROADCASTING NETWORK
         PRINCIPAL OFFICIALS

                                                    Name                            Arrival Date
President                                           Brian Conniff                          06/06
Chief of Staff                                      Kelley Sullivan                        08/06
Vice President for Network News                     Daniel Nassif                          06/07
 (ﬁve years as Radio Sawa News Director)
General Counsel                               Anne Noble                                     05/04
Director of Program Review & Research         Vatche Sarkisian                               02/07
 (with Alhurra since 2004 in other positions)




           OIG Report No. ISP-IB-08-45, Alhurra’s Programming Policies and Procedures - May 2008     17 .


                   SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED





18 .   OIG Report No. ISP-IB-08-45, Alhurra’s Programming Policies and Procedures - May 2008


                     SENSITIVE BUT UNCLASSIFIED
              SENSITIVE BUT UNCLASSIFIED





                       ABBREVIATIONS

BBG                 Broadcasting Board of Governors

Department          U.S. Department of State

IBB                 International Broadcasting Bureau

MBN                 Middle East Broadcasting Networks

OIG                 Ofﬁce of Inspector General

RFE/RL              Radio Free Europe/Radio Liberty

VOA                 The Voice of America




      OIG Report No. ISP-IB-08-45, Alhurra’s Programming Policies and Procedures - May 2008   19 .


              SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED





20 .   OIG Report No. ISP-IB-08-45, Alhurra’s Programming Policies and Procedures - May 2008


                     SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





                                  APPENDIX A


        MIDDLE EAST BROADCASTING NETWORKS REVISED

          JOURNALISTIC CODE OF ETHICS (MAY 2007)

                          JOURNALISTIC CODE OF ETHICS

    MBN’s mission is to broadcast news which is consistently accurate, authoritative,
objective, balanced and comprehensive. MBN strives to serve as a model of the free
marketplace of ideas and a free press in the American tradition, promoting freedom,
democracy and human rights, including freedom of religion. Additionally, MBN has
a mandate to present the policies of the United States government in a clear and ef­
fective manner through news reporting and responsible discussion.

                                            ACCURACY

    MBN journalists shall do their utmost to ensure that all broadcasts are factually
accurate. Where doubt or controversy exists on signiﬁcant points of fact, informa­
tion must be based on at least two independent sources. No program material shall
be broadcast that is based on rumor or unsubstantiated information.

    Any documents, video or audio obtained from outside sources must be properly
authenticated.

   Factual errors will be corrected on-air as soon as possible.

                                         IMPARTIALITY

    Information shall be reported or discussed in a factual, objective context that
enhances understanding of the events and issues and provides clarity without distor­
tion or bias. Objective language shall be used to reﬂect events and issues accurately
and dispassionately. Broadcasters shall present opposing or differing views accurately
and in a balanced manner on all issues. When groups or individuals whose views are
important for balanced programming decline to comment, it is appropriate to note
this on the air.



            OIG Report No. ISP-IB-08-45, Alhurra’s Programming Policies and Procedures - May 2008   21 .


                    SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



           MBN shall be independent from any political party, ruling or opposition group
       or organization, émigré organization, commercial or other special-interest organiza­
       tion, or religious body, whether inside or outside the broadcast area; and shall not
       endorse or advocate any speciﬁc political, economic, or religious viewpoint.

                                  CONTROVERSIAL/SENSITIVE ISSUES

           MBN does not provide an open platform for terrorists or those who support
       them. This has long been the policy of all United States international broadcasting
       organizations and grantees, and MBN fully complies with this policy. MBN will not
       broadcast live speeches or interviews with persons designated as terrorists unless the
       broadcast has been previously approved by the vice president for News, or his or her
       designee. When the broadcast will be on the radio, the Radio Sawa news director
       should be consulted.

                             ANALYSIS, COMMENTARY AND EDITORIALS

           All broadcasts should contain sufﬁcient background information and explanation
       to enable the audience to better understand the signiﬁcance and consequences of
       information being reported.

           Journalists shall not insert their personal opinions or judgments in factual reports
       at any time.

          Failure to abide by this policy constitutes grounds for termination of employ­
       ment.

          Material that is primarily analytical will be clearly labeled as such, to distinguish it
       from factual news reporting and commentary.

           * Analysis provides background information, explanation, and differing authorita­
       tive views on an issue or event—but states no personal opinion on the part of the
       speaker. Analysis is preferred over commentary.

           * Commentary, which is to be clearly labeled as such, is analytical in content and
       judicious in tone but reﬂects the personal judgment or opinion of the speaker on a
       particular issue.




22 .    OIG Report No. ISP-IB-08-45, Alhurra’s Programming Policies and Procedures - May 2008


                      SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



                       TONE OF MODERATION AND RESPECT

    Broadcasts, including talk shows and debates, shall at all times maintain a calm
and professional tone and shall project a model of civilized, reasoned discourse, as
well as respect for the human rights of all persons. Broadcasters and guests shall not
make religious, ethnic, socio-economic or cultural slurs upon any person or groups
and shall observe common standards of etiquette and taste.

    Broadcasts shall not contain material which could be construed as an incitement
to violence.

    Programming on disturbances or other tense situations must be balanced and
factual. MBN will not permit its programs to be used as a platform for terrorist orga­
nizations.

                                AVOIDANCE OF ADVOCACY

    MBN supports freedom, democracy and the human rights common to demo­
cratic states. However, MBN does not advocate the adoption of speciﬁc policies or
legislation, or endorse or oppose candidates for elected or appointed ofﬁce.

                                     ETHICAL CONDUCT

    MBN staff members and contributors shall maintain the highest ethical stan­
dards in all conduct, taking particular care to avoid any conﬂict of interest, or the
appearance thereof, in their relations with individuals, groups and/or political or
commercial interests inside or outside the broadcast area. MBN staff members and
contributors shall remain free of associations and activities that could, or could
appear to, compromise their integrity, damage their credibility or jeopardize their
journalistic independence. They shall refuse gifts, favors, fees, free travel and special
treatment, and shun secondary employment, political involvement, public ofﬁce and
service in community organizations to the extent any of these could compromise
journalistic integrity. MBN staff members and contributors shall in no way abuse
their status as public Figures, or the good reputation of MBN, to promote personal
interest or gain.

     In keeping with this policy, MBN employees are not permitted: (a) to appear on
radio or television programs, in print, or in commercial advertising under their own
names or pseudonyms; (b) to write (under their own names or pseudonyms) for pub­
lication (electronic or otherwise) on any topic; or (c) to serve in an advisory capacity
for any media organization or political or advocacy group without the express writ­
ten prior permission of the vice president for News.


            OIG Report No. ISP-IB-08-45, Alhurra’s Programming Policies and Procedures - May 2008   23 .


                    SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



                                                   INTERVIEWS

           Interviews must be unrehearsed and speciﬁc questions must not be submitted
       in advance. It is permissible to discuss in advance with the interviewee the purpose
       of the interview and the general subjects to be covered. All recorded interviews are
       subject to editing and no MBN staff member or contractor may represent to anyone
       that an interview will be carried in full. The raw or edited ﬁlm, tape, other electronic
       version of the interview or transcript may not be shown to or played for an inter­
       viewee or representative in advance of its broadcast, nor may the interviewee or a
       representative participate in the editing of the interview.

                              EDITING AND PRODUCTION STANDARDS

           All persons who edit reports, interviews and other materials for air shall ensure
       that their editing reﬂects fairly, honestly and without distortion what was seen and
       heard by MBN reporters and recorded by our cameras and microphones.

           Page 26 Employee Handbook

           Interviews are to be edited in a straightforward manner, preserving, even in short
       sound bites, the sense of the interview. Answers may not be taken out of context
       or edited together in a manner to change their meaning. The narration leading to a
       sound bite must reﬂect the question that elicited the response.

                                                   PLAGIARISM

            When a journalist at MBN uses facts gathered by any other organization, those
       facts must be attributed. This policy applies to material from newspapers, magazines,
       books, CDs and broadcasts, as well as to material taken from news agencies like
       Reuters, Agence France Presse and the Associated Press (for example, “the Secretary
       told Reuters”). In other words, even when we purchase news services, we do not
       treat the reporting done by others as reporting done by us. MBN’s preference, when
       time and distance permit, is to do our own reporting and verify another organiza­
       tion’s story; in that case, the reporter, correspondent or anchor need not attribute the
       facts. But even then, as a matter of courtesy and candor, the reporter, correspondent
       or anchor should credit an exclusive to the organization that ﬁrst broke the news (for
       example, “CBS reported this morning ... .”). Attribution to another news organiza­
       tion, however, does not mean MBN’s journalists can broadcast rumors or allegations
       that would not independently meet the test of MBN’s own reporting standards, as
       set forth in this policy. Rumors and allegations must satisfy MBN’s standard of news­
       worthiness, taste and plausibility before being broadcast, even when attributed. And
       when the need arises to attribute, that is a good cue to consult with a senior producer


24 .    OIG Report No. ISP-IB-08-45, Alhurra’s Programming Policies and Procedures - May 2008


                      SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED




or editor about whether broadcast is warranted at all. Thus, MBN would not permit
the broadcast of a statement like this – “One Commissioner apparently accused
another Commissioner of lying about the grain statistics, according to the Associated
Press” – unless MBN had independently conﬁrmed, in accordance with this policy,
that “One Commissioner accused another Commissioner of lying about the grain
statistics,” in which case attribution would not be necessary.

     In cases when it makes a difference whether MBN staffers or stringers directly
witnessed a scene, MBN should distinguish on air between personal interviews
and telephone or E-mail interviews, as well as written statements. [This policy was
adapted from the plagiarism policy of The New York Times, which is available online at
http://www.asne.org/index.cfm?id=408.]




           OIG Report No. ISP-IB-08-45, Alhurra’s Programming Policies and Procedures - May 2008   25 .


                   SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED





26 .   OIG Report No. ISP-IB-08-45, Alhurra’s Programming Policies and Procedures - May 2008


                     SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED





                                 APPENDIX B



               BBG WEB SITE FOR PERSIAN TRANSLATIONS

                   WW.BBG.GOV/OTHER_REPORTS.CFM

    OIG Note: At the time of this report, no Arabic translations had been posted to
the Web. This page view illustrates where Arabic translations may be posted in the
future. They may also be posted on the Alhurra Web site.




           OIG Report No. ISP-IB-08-45, Alhurra’s Programming Policies and Procedures - May 2008   27 .


                   SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED





 SENSITIVE BUT UNCLASSIFIED

